<html>
<title> - [H.A.S.C. No. 114-59] COUNTERING ADVERSARIAL PROPAGANDA: CHARTING AN EFFECTIVE COURSE IN THE CONTESTED INFORMATION ENVIRONMENT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






 
                         [H.A.S.C. No. 114-59]

                     COUNTERING ADVERSARIAL PROPAGANDA:

                      CHARTING AN EFFECTIVE

                        COURSE IN THE CONTESTED

                        INFORMATION ENVIRONMENT

                               __________

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            OCTOBER 22, 2015


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-493                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
  












           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                  JOE WILSON, South Carolina, Chairman

JOHN KLINE, Minnesota                JAMES R. LANGEVIN, Rhode Island
BILL SHUSTER, Pennsylvania           JIM COOPER, Tennessee
DUNCAN HUNTER, California            JOHN GARAMENDI, California
RICHARD B. NUGENT, Florida           JOAQUIN CASTRO, Texas
RYAN K. ZINKE, Montana               MARC A. VEASEY, Texas
TRENT FRANKS, Arizona, Vice Chair    DONALD NORCROSS, New Jersey
DOUG LAMBORN, Colorado               BRAD ASHFORD, Nebraska
MO BROOKS, Alabama                   PETE AGUILAR, California
BRADLEY BYRNE, Alabama
ELISE M. STEFANIK, New York
                 Kevin Gates, Professional Staff Member
              Lindsay Kavanaugh, Professional Staff Member
                         Nevada Schadler, Clerk
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Emerging Threats and 
  Capabilities...................................................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Emerging Threats and Capabilities..............     1

                               WITNESSES

Armstrong, Hon. Matthew C., Broadcasting Board of Governors......     3
Haas, MG Christopher K., USA, Director, Force Management and 
  Development Directorate, U.S. Special Operations Command.......     6
Lumpkin, Hon. Michael D., Assistant Secretary of Defense for 
  Special Operations and Low-Intensity Conflict..................     5
Moore, Brig Gen Charles L., USAF, Deputy Director for Global 
  Operations, Joint Staff........................................     8

                                APPENDIX

Prepared Statements:

    Armstrong, Hon. Matthew C....................................    29
    Haas, MG Christopher K.......................................    54
    Lumpkin, Hon. Michael D......................................    40
    Moore, Brig Gen Charles L....................................    64
    Wilson, Hon. Joe.............................................    27

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Wilson...................................................    73
    
    
    
    
COUNTERING ADVERSARIAL PROPAGANDA: CHARTING AN EFFECTIVE COURSE IN THE 
                   CONTESTED INFORMATION ENVIRONMENT

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
         Subcommittee on Emerging Threats and Capabilities,
                        Washington, DC, Thursday, October 22, 2015.
    The subcommittee met, pursuant to call, at 2:08 p.m., in 
room 2212, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON EMERGING THREATS AND 
                          CAPABILITIES

    Mr. Wilson. Ladies and gentlemen, I would like to call this 
meeting of the Emerging Threats and Capabilities Subcommittee 
of the House Armed Services Committee to order.
    I am pleased to welcome everyone here for today's hearing 
on information operations and counter-propaganda capabilities. 
This hearing will focus on the challenges faced by the 
Department of Defense [DOD] and the Federal Government when 
dealing with the insidious propaganda and social media 
messaging coming from groups like Daesh, and sadly, from 
countries like Russia, China, and others. Not only do they 
recruit members, raise money, and sway the opinion of potential 
allies with this propaganda, but they sow doubt and dissension 
as a means of preventing or discouraging U.S. military action 
to protect American families.
    Last month, our subcommittee held a closed roundtable 
discussion with outside industry and academic experts to 
explore this topic. That discussion helped our members better 
understand some core challenges and concerns, including what 
are our current capabilities for information operations and 
counter-propaganda, and how are they being integrated into 
larger strategies to deal with specific actors like Daesh, 
Russia, Iran, China, and others.
    How can new techniques and concepts improve our ability to 
sense, detect, analyze, and respond to propaganda in the 21st 
century media environment? What policy changes impair our 
ability to realize the full potential of these new technologies 
and concepts? These questions and issues remain relevant in 
today's hearing.
    Our panel of expert witnesses will proceed from that 
starting point and provide us with their thoughts from a 
governmental perspective on this important topic.
    Our witnesses before us today are Mr.--the Honorable 
Michael Lumpkin, Assistant Secretary of Defense for Special 
Operations and Low-Intensity Conflict [SO/LIC]; the Honorable 
Matthew Armstrong, Broadcasting Board of Governors [BBG]; Major 
General Christopher K. Haas, Director of Special Force 
Management and Development, United States Special Operations 
Command, SOCOM, and also a very grateful dad of a Citadel 
cadet, which I respect very much; and Brigadier General Charles 
Moore, Deputy Director for Global Operations, Joint Staff.
    I would like now to turn to my friend and ranking member, 
Jim Langevin from Rhode Island, for any comments he would like 
to make.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 27.]

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
RHODE ISLAND, RANKING MEMBER, SUBCOMMITTEE ON EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Langevin. Thank you, Mr. Chairman. I want to thank our 
witnesses for being here, for your service to the country, and 
for all you are doing to keep us safe. The Department of 
Defense's ability to work in concert with other U.S. Government 
agencies and international entities to effectively counter 
propaganda is an issue that the members of this subcommittee 
have been concerned with for some time, and I am glad, Mr. 
Chairman, that again you are holding this hearing.
    DOD has a long history of countering adversary propaganda 
and influence in order to further our national security 
objectives, and it has met with great success. However, unlike 
World War II or in the 1980s, today's state and non-state 
actors disseminate their messages far and wide instantaneously, 
crossing multiple combatant command areas of responsibility and 
reaching audiences all over the world, including U.S. citizens.
    Unfortunately, time and distance are no longer on our side. 
This evolution of the information environment forces us to 
think about how to approach this issue. Should decisionmaking 
within the military chain of command be decentralized so 
efforts can be more effective in time and space? If so, how do 
we maintain oversight and synchronization of efforts?
    Further, how do we take into account privacy, freedom of 
speech, and other issues as they pertain to U.S. persons and 
nonadversaries in an environment without boundaries? 
Essentially, how can we more effectively employ capabilities?
    As the chairman mentioned, the subcommittee held a 
roundtable with independent witnesses on the issue several 
weeks ago, setting the stage for a deeper discussion of the 
aforementioned issues.
    Today, I look forward to hearing from our witnesses as to 
how they are working to more effectively employ capabilities 
that we do have and developing even better capabilities and 
tactics, techniques, and procedures for the future.
    With that, Mr. Chairman, I look forward to our witnesses' 
testimony, and I yield back.
    Mr. Wilson. Thank you very much, Mr. Langevin. I would like 
to remind our witnesses that your written statements will be 
submitted for the record, so we ask that you summarize your 
comments to 5 minutes or less, and then after that, we will 
proceed with each member having 5 minutes to ask questions.
    We have a person who is above reproach, Kevin Gates, as we 
maintain the 5-minute rule, and then this is a unique hearing, 
and so we will actually begin with questionings in reverse 
order of how the seating, and we will begin with Congresswoman 
Elise Stefanik when we begin questions.
    So I would like to thank again all of you for being here 
today, and we begin with Mr. Armstrong.

 STATEMENT OF HON. MATTHEW C. ARMSTRONG, BROADCASTING BOARD OF 
                           GOVERNORS

    Mr. Armstrong. Thank you, Mr. Chairman, members of the 
subcommittee, thank you for inviting me to speak to the unique 
role of the Broadcasting Board of Governors and the United 
States international media, and the role we play in advancing 
our national interest. I am pleased to join today's panel 
alongside my colleagues from the Department of Defense. I have 
a longer written statement for the record, and I will summarize 
that here.
    This committee knows well that while today's increasingly 
interconnected world offers us a plethora of opportunity, it 
also provides challenges. From Crimea, to Syria, Northern 
Nigeria, and Southeast Asia, propaganda and censorship have 
used our increasingly networked world to not just seek to win 
the news cycle, but to shape the very choices of statecraft.
    U.S. foreign policy cannot be effective if we do not 
appreciate how information shapes the actions of policymakers, 
institutions, and the public. The Broadcasting Board of 
Governors is a unique tool within this broader context. We are 
a 24/7 global media organization that oversees nonmilitary 
international media support supported by the U.S. Government, 
including the Voice of America [VOA], the Office of Cuba 
Broadcasting, BBG-funded grantees Radio Free Europe/Radio 
Liberty, Radio Free Asia, and Middle East Broadcast Network.
    Our ultimate goal is to inform, engage, and connect people 
around the world in support of freedom and democracy through 
topnotch fact-based reporting. We broadcast in 61 languages and 
reach more than 215 million people each week. We are unique, 
however, in that we prioritize our contact to impact strategic 
audiences. Many of our reporters are not only from our target 
markets, but they also maintain extensive networks in them. 
They speak as locals. They know their audiences deeply.
    We are called upon to operate in markets until private 
information dissemination is found to be adequate. Virtually, 
by definition, we target markets that are hard to reach, and at 
best, underserved by accessible, reliable, independent media. 
In short, there is no other agency or corporation like us that 
puts the audience first, that actively builds true independent 
media markets in order to one day not be needed.
    By unleashing the power of professional journalism, we not 
only inform foreign publics, we allow individuals to aspire to 
freedom by offering them a platform to make decisions based on 
information that is verifiably true. When we cover the 
successes of free and open elections, as we have recently in 
Nigeria, for instance, we educate the audiences on how 
opposition parties can seek power through the ballot.
    We serve as a key explainer of U.S. policy as well. VOA's 
charter mandates that our programs present the policies of the 
United States clearly and effectively, and also present 
responsible discussions and opinion on these policies. When we 
train the lens on our policy discussions, for example, by 
covering different views on recent negotiations with Iran, we 
allow the world to see democracy as a constantly evolving work 
in progress guided by the rule of law.
    Even simply talking about how Americans go about paying a 
parking ticket can open the eyes of our audiences. Allow me to 
use some terms that are not usually associated with the BBG, 
but are familiar to the committee and to my colleagues at the 
table. The BBG is actively involved in foreign internal defense 
through empowering the people with the truth and giving them a 
voice through transparency and accountability. We work by, 
with, and through local populations by training and equipping 
local media and individuals to be better journalists. We 
actively work with some 3,000 affiliate news organizations 
around the world, including 400 radio stations in Indonesia 
alone.
    We are a force multiplier for broader U.S. public 
diplomacy. We open markets and closed societies for fact-based 
journalism so the audience can see an alternative future. Our 
media provide a platform on which the Department of State, the 
Department of Defense, Agency for International Development, 
Agriculture, and others can build their own success.
    As I had mentioned earlier, we face an increasingly 
networked world filled with challenges and opportunities. Let 
me mention five core--a couple of the core areas we are focused 
on. One, we are accelerating our shift toward engaged audience 
and digital platforms, video, mobile, social. Second, we are 
concentrating efforts in issue areas such as Russia, violent 
extremism, Iran, China. Third, we are focusing on impact 
overreach, putting the audience first.
    We are focused--and last, we focus on challenging 
information and Internet freedom worldwide, which is an 
enduring and central role. Through our Internet Anti-Censorship 
Program and Open Technology Fund, we seek to support 
journalists, bloggers, civil society actors, and activists to 
use the Internet safely and without fear of interference. We 
underwrite apps and programs for computers and mobile devices 
that help encrypt communications and evade censorship. These 
efforts have been successful, and we look forward to expanding 
them.
    As I close, let me say, journalism is a powerful force for 
change. By acting as the foreign domestic media, the BBG plays 
a critical role in the lives of the audiences by providing them 
with news and information in their local language that is 
relevant to their daily lives. Voice of America's first 
broadcast stated, ``The news may be good or bad. We will tell 
you the truth.'' At BBG, we continue to operate with that in 
mind. Because truth builds trust and credibility, delivering 
credible news is the most effective counter to propaganda and 
ignorance, and provides the audience with information that will 
affect their daily lives and their daily decisionmaking.
    And with that, I am happy to take questions. Thank you for 
your time and thank you for your attention.
    [The prepared statement of Mr. Armstrong can be found in 
the Appendix on page 29.]
    Mr. Wilson. And thank you, Mr. Armstrong. We now proceed to 
Secretary Lumpkin.

 STATEMENT OF HON. MICHAEL D. LUMPKIN, ASSISTANT SECRETARY OF 
   DEFENSE FOR SPECIAL OPERATIONS AND LOW-INTENSITY CONFLICT

    Secretary Lumpkin. Chairman Wilson, Ranking Member 
Langevin, and distinguished members of the committee, I 
appreciate this opportunity today to discuss the Department of 
Defense's role in direct support of the Department of State's 
efforts in the contested information environment.
    I would like to thank the committee for your support in 
this critical field. I am pleased to be joined today by 
Brigadier General Moore and Major General Haas. It is good to 
have the--my counterparts here, and in proper reflection of the 
need of a whole-of-government response to this challenge, I am 
honored to sit next to Governor Matt Armstrong from the 
Broadcasting Board of Governors.
    I am here to discuss an aspect of our information 
operations capabilities that has received special attention 
from this committee, and that is, our military information 
support operations force which requires--which provides a 
critical capability in support of tactical and operational 
needs of military requirements, as well as providing support to 
the overall strategic messages effort led by the State 
Department.
    The scope of our current challenge in the informational 
space is unprecedented. In a Washington Post editorial on the 
threat posed by the Islamic State of Iraq and the Levant, ISIL, 
Under Secretary of State for Public Diplomacy and Public 
Affairs, Richard Stengel, estimated that only 1 percent of a 
potential audience of 1.6 billion people who could be targeted 
by ISIL's messaging will actually support ISIL's actions.
    This 1 percent, while small at first blush, equates to 
approximately 16 million potential supporters of ISIL's actions 
around the globe. Even that startling number conceals a 
critical difference, which is the unfettered geographic and 
virtual dispersion of this new adversary.
    Social media and other communications technologies has 
enabled the virtual, and in some cases, actual mobilization of 
dispersed and demographically varied audiences around the 
world. Non-state actors can reach across the globe with 
multiple, simultaneously targeted and tailored approaches to 
motivate or manipulate a spectrum of audiences.
    They do this in numerous languages with messaging designed 
to specifically influence or motivate them according to their 
personal beliefs or perceptions, all conducted through 
smartphone, computer, and an Internet connection. In this 
environment, technology is not limited to one-way broadcast 
like television or radio, it allows interactive discussion any 
time in almost any location with virtually unlimited reach.
    This hyper-connected world has many positive benefits, but 
the rise of ISIL and the ability for other state and non-state 
actors to conduct recruitment operations and spread propaganda 
almost certainly and with minimal cost highlights the dark 
side, one that requires the whole-of-government response.
    In this challenging environment, I see two main 
implications for the Department of Defense. First, the 
Department does not lead the U.S. Government effort or possess 
the only capabilities in this space. All other civilian 
departments and agencies have their own roles and missions as 
part of the government's strategic communications efforts. This 
demands close interagency coordination and clear understanding 
of the appropriate roles and complementary nature for each 
piece of the U.S. Government's communication and engagement 
framework with global audiences.
    The bottom line is that the Department's efforts alone 
cannot solve the challenge of this contested information 
environment and adversary propaganda, but we do have a critical 
role to play as a contributor of our unique military 
capabilities and a partner to the whole-of-government effort 
led by the State Department.
    Second, the complexity of this environment demands that we 
use a thoughtful, strategic approach to achieve success against 
differing adversaries. Simply trying to master adversaries 
tweet for tweet, or Web site for Web site, is both fiscally 
irresponsible and operationally ineffective. Instead, we must 
rely on the skills of our talented workforce to develop 
thoughtful, well-constructed plans, partnerships with 
interagency and our international friends, and the use of a 
variety of means to disrupt the adversary's narrative.
    We need to expose its contradictions and its falsehoods, 
and ultimately bring credible, persuasive, and truthful 
information to audiences who have often have significantly 
different perceptions and cultural norms than our own. We 
acknowledge and are appreciative of the intent of the language 
of section 1056 of the pending NDAA [National Defense 
Authorization Act].
    Thank you for your support of the Department's efforts in 
this critical space, and I look forward to answering any 
questions you may have. Thank you.
    [The prepared statement of Secretary Lumpkin can be found 
in the Appendix on page 40.]
    Mr. Wilson. Thank you, Secretary Lumpkin. We now proceed to 
General Haas.

   STATEMENT OF MG CHRISTOPHER K. HAAS, USA, DIRECTOR, FORCE 
MANAGEMENT AND DEVELOPMENT DIRECTORATE, U.S. SPECIAL OPERATIONS 
                            COMMAND

    General Haas. Mr. Chairman, distinguished members of the 
committee, thank you for the opportunity to discuss U.S. 
Special Operation Command's manning, training, and equipping of 
the military information support operations, MISO, force.
    Preparing our MISO forces for current and future conflict 
is a critical role for USSOCOM [U.S. Special Operations 
Command]. The extensive propaganda efforts employed by both 
ISIL and Russia makes USSOCOM's role in manning, training, and 
equipping even more critical.
    We have made significant improvements in all three areas 
over the last decade, but there is considerable work remaining, 
particularly improving our MISO force's capability to influence 
on the World Wide Web. Now I would like to address SOCOM's role 
in manning, training, and equipping.
    The overall end strength of the two Active Duty groups is 
approximately 1,050 officers and enlisted MISO soldiers. The 
active officer and NCO [non-commissioned officer] core is 
appropriately manned with the exception of sergeants at the E-5 
level, which is below authorized levels. Our projections for 
recruitment and retention indicate we should have our Active 
Duty MISO groups fully manned by fiscal year 2019.
    The complexity of the mission, and the expertise required 
to carry out MISO missions, has shaped an extended selection 
and training program for our MISO soldiers. They now attend a 
2-week selection, and 42-week qualification course. This is 
different from other U.S. Government training, because it 
focuses on language, culture, and influence principles. This 
ensures our soldiers know how to design persuasive arguments, 
use the right symbols, and identify the best media. This 
training makes MISO a distinct asset within the Department of 
Defense.
    As you well know, our adversaries use the Internet to 
recruit followers, gain financial support, and spread 
propaganda and misinformation. The current conflicts have 
identified our need to expand MISO training on the World Wide 
Web. Through the joint requirements process, multiple combatant 
commands have identified capability gaps in regards to MISO's 
use of the Web. SOCOM is now in the process of developing a 
comprehensive plan to expand MISO training into social media 
use, online advertising, Web design, and other areas.
    Maintaining a current MISO equipment capability to meet our 
operational requirement is also an ongoing effort, but one 
USSOCOM is well-positioned to meet. We have a state-of-the-art 
media production center at Fort Bragg, North Carolina, with the 
capability to provide for print, audio, and video production. 
We are also constantly exploring and developing future MISO 
capabilities to ensure that we meet the emerging needs of the 
combatant commanders.
    USSOCOM welcomes this committee's support regarding 
technology demonstrations to assess innovative and new 
technologies for MISO. The Web-based technologies we are 
exploring will be more flexible in nature and provide support 
to on-site commanders.
    In closing, SOCOM is committed to meeting the challenges of 
training and equipping the force, while simultaneously 
addressing our current manning issues. I also want to thank you 
for your continued support of our SOF [special operations 
forces] personnel and their families. The tremendous demands we 
have placed on them requires a continued commitment to provide 
for their well-being and combat readiness. This concludes my 
opening remarks, and I welcome your questions.
    [The prepared statement of General Haas can be found in the 
Appendix on page 54.]
    Mr. Wilson. Thank you very much, General Haas. We will now 
proceed to General Moore.

 STATEMENT OF BRIG GEN CHARLES L. MOORE, USAF, DEPUTY DIRECTOR 
               FOR GLOBAL OPERATIONS, JOINT STAFF

    General Moore. Thank you, Mr. Chairman, Mr. Ranking Member, 
and distinguished members of the committee. I appreciate the 
opportunity to appear before you today to discuss the actions 
we and the Department of Defense are taking to counter the 
propaganda campaigns of our enemies.
    In order to effectively achieve our military objectives and 
end states, information operations must be inherently 
integrated with all military plans and activities in order to 
influence and ultimately alter the behavior of our adversaries 
and their supporters. To accomplish that goal, there are 
several capabilities available to commanders, the most common 
being employment of our military information support operation 
forces, or MISO forces.
    MISO personnel have the training and cultural understanding 
to assess enemy propaganda activities and propose unique 
solutions that directly support our ability to achieve our 
military objectives. MISO forces operating from a U.S. embassy 
and operational task force, or component headquarters, are 
employed to execute DOD missions that support named operations, 
geographic combatant commander, theater security cooperation 
efforts, and public diplomacy. How combatant commanders employ 
their MISO operation capabilities to counter adversarial 
propaganda is what I understand you want to focus on today.
    MISO forces are currently deployed to 21 U.S. embassies 
working with country teams and interagency partners to 
challenge adversary IO [information operations] actions and 
support broader U.S. Government goals. To perform their 
missions, MISO forces use a variety of mediums, including 
cyber, print, TV, and radio, to disseminate information in a 
manner that will change perceptions, and subsequently, the 
behavior of the target audiences.
    Unfortunately, as this is an unclassified hearing, the 
specific examples that I can discuss are limited, but I do want 
to provide you some brief examples of the efforts our MISO 
forces are currently undertaking around the world. In Central 
Command, MISO efforts are focused on challenging the actions of 
violent extremist organizations.
    For example, in Iraq, MISO forces are conducting an advise-
and-assist role, to help Iraqi forces learn to develop 
indigenous military information support operations and counter-
propaganda activities. Central Command's online influence 
strategy is used to counter adversary narratives, shape 
conditions in the AOR [area of responsibility], and to message 
specific target audiences. These operations include using 
existing Web and social media platforms such as Facebook, 
Twitter, and YouTube, support military objectives by shaping 
perceptions while highlighting ISIL atrocities, coalition 
responses to ISIL activities, and coalition successes.
    European Command's efforts include exposing Russian 
mistruths and their concerted efforts to mislead European 
audiences as to their true intentions. We are in the final 
stages of staffing European Reassurance MISO program, which 
will provide expanded authorities to conduct MISO training, and 
in some cases, messaging support to our partners in the region.
    EUCOM [European Command] is also looking to expand their 
engagement with the Broadcasting Board of Governors to further 
improve their information dissemination capabilities.
    Ultimately, regardless of the enemies that we face, the 
Department of Defense understands the criticality of countering 
an adversary supporter's confidence, conviction, will, 
decisionmaking, while shaping behavior supportive of our 
military objectives. We understand that these actions must be 
taken while not exceeding the authorities that we have been 
granted, while always operating within the boundaries the 
Department has been given, and with the close coordination of 
our interagency partners.
    Finally, I also want to express my deep appreciation for 
the committee's unwavering support of our men and women in 
uniform, to thank you, again, for the opportunity to appear 
this afternoon, and I look forward to answer any questions that 
you might have. Thank you.
    [The prepared statement of General Moore can be found in 
the Appendix on page 64.]
    Mr. Wilson. Thank you very much, General Moore, and we now 
will proceed with the members' questions, and Kevin is going to 
make sure the clock is properly maintained. And so we will 
begin, of course, with Congresswoman Elise Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman. Thank you for your 
testimony today.
    Secretary Lumpkin, my first question is for you. In October 
of 2014, the Department submitted a report to this committee on 
future military information operations capabilities as a result 
of section 1096 of the fiscal year 2014 NDAA. Can you give this 
committee an update on what progress has been made in 
implementing the findings and recommendations of that report?
    Secretary Lumpkin. Yes, ma'am. As mentioned in 2014, we 
answered that report, and we continue to develop and do this 
holistic review of how we do business, from everything from the 
authorities that we have in place, to the pieces of how we man, 
train, and equip, and to actually how we operate--
operationalize our MISO efforts.
    So this is part of our ongoing process, as we are always 
looking and reevaluating in dialogue with our interagency 
partners and with this committee and others to make sure we 
have the right oversight and we have the right capabilities in 
place.
    So I think we are making good strides. Again, it is a 
continual challenge to work through, but I think we are doing 
the right things as we provide oversight and evaluate our 
capabilities.
    Ms. Stefanik. I wanted to follow up on the point you made 
about the authorities.
    Secretary Lumpkin. Uh-huh.
    Ms. Stefanik. Since we are operating in a very complex IO 
environment. At a previous hearing, we heard from the witnesses 
about the lack of clarity of the rules of engagement and of 
those authorities. Can you talk about some specific 
improvements that we should be making in order to clarify that?
    Secretary Lumpkin. I firmly believe that title 10 under 
U.S. Code gives DOD the authorities it needs to do the 
information operations that we are required to do to support 
our current mission, and the way--so I am very comfortable with 
our authorities in this space. We continue to work with our 
interagency partners to make sure that we are supporting them 
in the fullest and most robust way possible. And I--again, I do 
believe we have the authorities in place to do what we need to 
do.
    Ms. Stefanik. Thank you. My next question is for General 
Haas. Based on the current projections to reduce Army personnel 
by about 40,000 people, could you describe what effect these 
reductions could potentially have on the military information 
support operations community?
    General Haas. I would respond to that question this way, 
Congresswoman, is that the command is very concerned about the 
reduction in the overall size of the United States Army, from 
which we draw our pool of candidates for our MISO forces. It 
would be difficult for me to fully quantify that because the 
Army is currently in that process.
    But as my commander has expressed in other forums, he is 
concerned about that drawdown, because that does reduce the 
pool of available candidates and qualified soldiers that would 
want to--that we could recruit, select, and train for our MISO 
force, and so we continually look and try to analyze, you know, 
exactly what that impact will be over time.
    As I stated in my opening remarks, we are trying to 
mitigate some of these concerns through more active recruiting, 
directed specifically at the E-5 level, to fill our current 
shortages, and we are looking at other management tools in 
order to ensure that we retain our best qualified MISO soldiers 
in order to offset the potential impact of a smaller Army on 
our community.
    Ms. Stefanik. Thank you very much, and I yield back.
    Mr. Wilson. Thank you very much. And we now proceed to 
Congressman Ashford of Nebraska.
    Mr. Ashford. Thank you, Mr. Chairman. I have a couple of 
questions. One general one, and that is, in this area of 
recruiting individuals who can engage in this activity, 
General, how do you see, going forward with the authorities you 
have and some of the work that has been done in the NDAA, how 
do you see the private sector's expertise being tapped to raise 
the level of activity in this area? What is your vision of 
that?
    General Haas. Thank you for the question, Congressman. So 
SOCOM is exploring and is working on new relationships, not 
only with the private sector but with academia in general, 
trying to certainly garner the--and understand the skill sets 
that they can help in provide to--certainly to our community.
    So that is an ongoing effort, and we are also partnering, 
as best we can, I think, with the interagency and we are 
looking for areas in which to improve that, so that we not only 
have a whole-of-government approach, but we have maybe a whole-
of-society approach towards improving the quality of our MISO 
skills, knowledge, and abilities.
    Mr. Ashford. And you believe you have adequate legislative 
authority to undertake those partnerships, I assume. Is that--
--
    General Haas. I would describe it this way: We have--
USSOCOM has the adequate authorities to do our current man, 
train, and equip mission.
    Mr. Ashford. Okay. So we can--having--well, let me give you 
an example. And maybe I misinterpreted what Admiral Rogers 
said, but I think I understood what he was saying in a 
committee hearing we had, that--so, for example, the--on the 
military side, we could reach out to the private sector, bring 
in expertise from the private sector to fill out the--some of 
these responsibilities on an interim basis or a short-term 
basis. Is that something--assuming that the standards are 
adequately adhered to, is that something that you all think 
could happen?
    General Haas. We obviously understand that the pace at 
which technology advances, we will probably have to reach out 
to the private sector in terms of contractors to bring that 
expertise into the force until we can appropriately train our 
soldiers, our men and women inside the MISO community to fully 
understand--operate and understand that new technology. And we 
are always working that balance between, you know, what is out 
there in the private sector and what we can then incorporate, 
gain into our community.
    Mr. Ashford. Right. I think--let me ask General Moore. 
Could I ask you a question specifically about language 
competency? Hopefully I am asking--I think you talked about 
that a little bit, but when we were in Iraq with the chairman, 
there was discussion about, you know, the language, knowing the 
language--not only knowing the language, but knowing the 
nuances of the language, the different--and hopefully I am 
asking the right, Mr. Secretary, the right person here. Anybody 
can answer it. But are we--are we--that sort of sophisticated 
nuanced language training, is that--do we have the adequate--do 
we have adequate resources? You mentioned that is a challenge. 
There is maybe----
    General Haas. Yes, sir, that is more in my lane.
    Mr. Ashford. Okay.
    General Haas. We spend a significant amount of our time in 
the qualification course for our MISO soldiers focused on 
language and culture, so the--each one of the MISO soldiers is 
required to graduate with a--what we call a one-one capability 
in a targeted language. And so that allows them to speak 
conversationally and read the language.
    We are focused right now on a number of different 
languages, but we have adequate resources within the community 
to adjust that language, and then continually provide 
sustainment training. But as you know, mastering a language is 
sometimes a gift, and we look to target our soldiers with that 
gift in languages to----
    Mr. Ashford. And do you recruit--sorry.
    General Haas [continuing]. So beyond one-one.
    Mr. Ashford. Sorry. Do you recruit to that as well?
    General Haas. Obviously, in order to attend our assessment 
selection courses, those soldiers have to have an aptitude high 
enough score on their language test to enter our courses, so we 
do test to that.
    Mr. Ashford. Thank you for your--for all your work. Thanks. 
Thanks, Mr. Chairman. I yield back.
    Mr. Wilson. Thank you, Mr. Ashford. We now proceed to 
Congressman Trent Franks of Arizona.
    Mr. Franks. Well, thank you, Mr. Chairman, and thank all of 
you. I always want to acknowledge the folks that wear the 
uniform and put themselves at risk for the rest of us in terms 
of even just putting your whole life to the cause of freedom, 
and I am grateful to you.
    Essentially, I guess we are discussing the Department's 
capability today of, to use a quote here, ``conducting 
operations to inform, influence, and shape adversarial behavior 
in the information environment.'' That sounds pretty important 
to me, given the ideological nature of some of the enemy that 
we face.
    So I guess my first question is, what do you think 
represents the best bang for our buck, or the best strategic 
niche that we can pursue in order to actually change the 
behavior of our adversaries? And let's see, Secretary Lumpkin, 
I will go ahead and begin with you, and if anybody else would 
like to take the question, that would be great.
    Secretary Lumpkin. Yes. Thank you for the question. I think 
there is two principal aspects for us, is that one is that as 
part of DOD's larger strategy, it is all operations, large or 
small, have an information operation component that supports 
that particular operation. So it is codified and actually 
integrated in all operations. So I think that, first of all, 
that is kind of the chapeau that--so everything we do.
    The other piece is that our relationships with the 
interagency where we look to how we can support our partners 
who have--and bring our unique military capabilities, whether 
it is print or it is working some other piece in order to help 
them in their effort.
    So once our--our principal role here outside of doing 
information operations on operations, per se, that are uniquely 
military, is how we support our partners, so I think that is 
key and I think that is a huge value we bring as a Department.
    Mr. Franks. Well, I have seen a lot of research that shows 
that one of the challenges that we have with this ideological 
enemy is that when we try to measure their commitment to their 
cause, that we sort of have to break it down typically to 
whether it is a sacred value to them or not. In other words, is 
this something that they are joining the group just for sort of 
the adventure, or if this is something that is deeply held 
conviction that goes to the religious core of who they are.
    And it just--I am just wondering if these are really some 
of the leadership here is acting on sacred core values, and it 
doesn't seem like anything we can say to them is going to have 
a lot of impact, but it--perhaps our efforts would be 
redirected at those less committed so that we sort of--sort of 
impact the support base of the true believers, as it were.
    Secretary Lumpkin. All good points. It is very interesting. 
A study was recently done from a Lebanese-based company called 
Quantum, and it put ISIL, in particular, people into nine 
different bins of people who would join this organization, so 
it allows for better targeting. Just a quick list of them that 
I found were interesting.
    The first one was the status seeker, somebody looking for 
status; the second one was an identity seeker, somebody looking 
for an identity; revenge, revenge seeker; redemption seeker; 
responsibility seeker; the thrill seeker; somebody who is 
looking for ideology, somebody who is looking for justice; and 
then a death seeker are the nine different bins.
    So as things are developed, just as our enemies target 
specific audiences, the--we have to, as a U.S. Government writ 
large, have to have unique messages directed towards each of 
these nine different bins. I thought this was very informative 
and very helpful in helping me understand the problem awhile 
back.
    Mr. Franks. Well, actually, you know, that is the point I 
was really trying to get to, as you probably imagine, and it 
sounds like that last guy is going to be a little bit 
recalcitrant. The death seeker doesn't sound to me like someone 
who is going to be open to a lot of, ``well, you just had a bad 
childhood'' approaches.
    So I guess then my final question to you is, with apologies 
for this sequester and what it has done to pretty much the 
entire military apparatus of this country, do you feel like--
and General Haas, this goes to your testimony, do you feel like 
the Department has the appropriate resources--you sort of 
touched on it already, but the appropriate resources and 
programming personnel to successfully execute this current 
counter-ISIL strategy? Do you think--and if you don't have 
something that you need, what could we do to make your life 
easier and more effective against these enemies of freedom?
    Secretary Lumpkin. If I may actually take that question. 
What I don't have is budget certainty. Where I am, I am trying 
to come up with a multiyear strategy, because this doesn't 
happen overnight. In order to influence somebody to change 
their mindset, their viewpoints, there is a continual 
engagement, so I am trying to do this in a multiyear plan on 1-
year money.
    Mr. Franks. Yeah.
    Secretary Lumpkin. So it is hard for us to make sound and 
long-term investments in our programming, in our planning to 
execute information operations without that budget certainty.
    Mr. Franks. Yeah.
    Secretary Lumpkin. And Matt, do you have----
    Mr. Armstrong. Thank you. It is a similar situation. We are 
not sure what is happening.
    Mr. Franks. Yeah.
    Mr. Armstrong. Is it possible to take a moment and answer 
your question as relates to----
    Mr. Franks. Well, I guess, of course, as far as not knowing 
what is going to happen, given the potential veto, join the 
club, you know, we don't know, any of us know what is 
happening. Go ahead, sir. I want to be sensitive to my time 
here. My time is expired. If the chairman wants to extend the 
time for you to answer, that is great.
    Mr. Armstrong. Thank you. So you asked about the audience 
or the folks and the different ideological viewpoints and the 
realities. This is where I emphasize the particular nature of 
our toolkit, what we bring to the table.
    The adversaries, and there are a whole bunch of different 
adversaries we face unfortunately right now, and they tend to 
rely on the say-do gap, they tend to rely on propaganda and a 
mistelling of history and a mistelling of the present, and they 
rely on the audience not knowing what the reality is, and they 
squash the freedom of speech and the freedom to listen, and 
that is where we are able to intervene and tell them what is 
actually going on, what is the truth.
    And then an important element, whether it is an IO, public 
diplomacy, what we do is the trusted communicator, and we 
empower the people on the ground that are familiar, whether it 
is an affiliate radio station, or it is an individual that is 
familiar with the particular potential extremist to communicate 
and actually have the truth so that this individual is being 
impacted from all angles with the reality, what is actually 
happening, so that is another element where we are coming in.
    Mr. Franks. Well, thank you, Mr. Chairman, for your 
indulgence here, and I think this gentleman could probably seek 
a career in political consulting at some point for campaigns 
afterwards. If you can change these guys' mind and help people 
see the truth, you have got a real future, brother.
    Mr. Wilson. And thank you so much, Congressman Franks. We 
now proceed to Congressman Marc Veasey of Texas.
    Mr. Veasey. Thank you, Mr. Chairman. I wanted to ask 
specifically about some of the propaganda activities that we 
are seeing out there in different regions of the world, Russia, 
ISIL, and Iran, China. With there being such--with social media 
itself being such a challenge to counter, you know, rumors and 
innuendo and myths and what have you, how much can we 
reasonably expect to be able to challenge some of the things 
out there that we see from Russia or ISIL, or any of these 
actors that are using social media to really keep things 
stirred up?
    General Haas. I know from a SOCOM prospective, what we are 
looking at is how do we become more--much more proactive, and 
as I stated in my opening comments, we are undergoing an entire 
review based on combatant commanders requests that we take--
that we take a closer look at what is happening on the Internet 
and social media sites, and then how do we help to influence 
that particular targeted audience via that media? And we've 
recognize that we are not on there constantly, and do we have 
the technology to be able to immediately respond and be a 
more--have a more persistent presence so that we can understand 
and then provide more comprehensive recommendations to our 
senior leaders and decisionmakers regarding the messages and 
other ways to counter this propaganda.
    And so that comprehensive review, and that look at 
technology to enable us to do it is ongoing right now, and we 
are hopeful that by the first quarter, fiscal year 2017, we 
will have a better picture of how we are actually going to get 
after that problem set of being able to be more proactive and 
be involved in the discourse, you know, continuously, rather 
than basically shooting behind the target, or being in a tweet-
for-tweet as the Assistant Secretary said, which we see only 
validates the message that they are sending out.
    Mr. Armstrong. If I may add, yes, we have to be proactive. 
One of the other challenges, and I think the general was 
getting to this, is we actually have to pay attention to the 
impact rather. The existence of the propaganda itself doesn't 
mean that there is impact. We have to look at what are they 
striving for and how do we counter that? How do we respond to 
that?
    So often, the best counter is an indirect response. So we 
look at, for example, Iran, and much of the propaganda coming 
from Iran is trying to destabilize Iraq and Syria and wreak 
chaos, so if we are in there and talking about it or engaging 
on the subject matter of what we are actually doing, what is 
the reality on the ground there? That is helpful.
    With Russia, much of the propaganda that surfaces is aimed 
at destabilizing the West, undermining the trust and 
credibility of journalism, of government, of NATO [North 
Atlantic Treaty Organization], of EU [European Union], and all 
those things, and so we can have a conversation along this 
other pathway, and we don't match propaganda. Certainly we 
don't go tweet-for-tweet, but we go to the overarching issues 
where they are having an impact.
    And with Daesh, same thing, as I mentioned before, there is 
a say-do gap, and we start to hit them, hit the audience on 
what is the gap, what are they saying, but what is the reality? 
And this will help impact and reach the audience. And again, we 
empower that audience so that they start to recognize the 
propaganda for what it is. It is not effective to tell somebody 
that is propaganda. You have to get them to internalize, and 
then, again, have them be the communicator and share that 
experience.
    Mr. Veasey. In the state of affairs today, with everything 
going on with Russia, with ISIL, with Iran trying to keep 
things stirred up in the region, where should we be focusing 
most of our efforts as far as it pertains to counter-propaganda 
and counter-social media tactics?
    Mr. Armstrong. Well, sir, it is--that is a difficult 
question because each one of these is a unique threat, and it 
is a different environment.
    Mr. Veasey. Who do you think is the most effective out of 
those players in using the social media to cause discord?
    Mr. Armstrong. I suspect we would have different answers 
from different folks and the different marketplaces. I think 
each one of these are sowing a very critical threat. As I said, 
the Russian propaganda aimed at the non-Russian audiences aimed 
at undermining NATO, EU, government, media, and that is a very 
scary destabilizing influence if it is actually having the 
impact and it is a seeping impact onto the audience.
    With Daesh, we see the impact of that, and there are 
questions on the resourcefulness of that, but honestly, I am 
not sure that--I think that is a above my pay grade, on where 
we should be focused. They are each unique threats, and it is 
based on our foreign policy and where we want to go.
    Mr. Veasey. Thank you, Mr. Chairman.
    Mr. Wilson. Thank you, Mr. Veasey, and I will start my 5 
minutes, and Kevin is pretty brutal about reminding me of this, 
which is good, and then we will proceed to Mr. Langevin. But as 
we begin, I want to indeed thank Mr. Armstrong, the 
Broadcasting Board of Governors. For you to have 61 languages, 
it is very impressive, too, for Voice of America to have 
persons who are actually proficient in the language, possibly 
even from--in their home community. That just comes across so 
positive and real world. I want to thank you for that.
    And then General Moore, I was grateful to hear that at 
embassies, there are personnel, in a positive way, monitoring. 
I minored in journalism. I love print media. When I visit 
countries around the world, I enjoy picking up local newspapers 
and seeing what is available. I was in Islamabad, Pakistan, a 
couple of years ago and it was just a very positive newspaper 
that I read. It had dispatches from Reuters and from Associated 
Press. It had advertising giving an indication of a vibrant 
consumer society and competition.
    But then I got to the op ed page, and there was a hate-
filled column, and it was ridiculous. It was insane. And it was 
specifically about how the American military spends all of its 
time targeting mosques, hospitals, schools to achieve the 
maximum number of civilian mass murder, and I thought this is 
so insulting.
    I mean, to the intelligence, in my reading it, who wrote 
it, and I looked: Fidel Castro. So it was somewhat discredited 
when I found out who the author was, but like entirely. But we 
have just got to be vigilant because somebody might believe the 
total and utter propaganda that I saw.
    With that in mind, Secretary Lumpkin, how closely are the 
activities of our information operations capabilities and 
people linked with the cyber operation capabilities and 
personnel?
    Secretary Lumpkin. I am going to defer to General Moore on 
that question.
    Mr. Wilson. That is fine. Thank you.
    General Moore. Yes, sir. Thank you for the question. They 
are extremely closely linked, as has been indicated several 
times so far in the discussions that we have been having. 
Organizations like ISIL are very, very dependent upon using 
cyber capabilities or the Internet, social media, through 
everything from command and control, disperse their propaganda, 
foreign fighter flow, and communications with regards to that, 
funding efforts, et cetera. So they are inherently linked.
    And as you are aware, Mr. Chairman, I know cyber is just 
one of the many information-related capabilities that is part 
of a broader information operation paradigm or structure, and 
so all those things occur simultaneously.
    Mr. Wilson. Well, we appreciate the effort very, very much. 
And General Haas, is there an overarching DOD, or Federal 
Government strategy to counter information operations and 
propaganda? How effective has it been? Or if not, what lack of 
strategy hindering our ability to take meaningful actions in 
the information environment?
    General Haas. Thank you for the question, Mr. Chairman. I 
am going to defer to the Assistant Secretary.
    Mr. Wilson. Hey, this is great. I want the right person to 
answer the question.
    Secretary Lumpkin. No, no, thank you, Mr. Chairman. I 
appreciate the question. Again, the State Department is the 
lead for the whole of government--U.S. Government response in 
working in the information space. On the counterterrorism part, 
they have the CSCC [Center for Strategic Counterterrorism 
Communications], which is--manages that, and the rest is done 
through the bureaus at State. It is how they manage their 
regional messages, and we provide direct support again. And the 
CSCC, for example, there is 20-some-odd people who were working 
that particular mission set, and we are providing about 25 
percent of them detailed over to the Department of State to 
assist them in that mission.
    So we are very closely linked within the interagency with 
our partners as we continue to work this, this challenging 
environment. And again, going back to the DOD's strategy, not 
only is the interagency piece, but it is what I mentioned 
earlier is that piece where every one of our operations has an 
information operation component to it.
    Mr. Wilson. Well, thank you very much, and Secretary, I 
appreciate you pointing out that the ISIL target may be only 1 
percent, but that is 16 million people, and sadly, in my home 
State, we had a shooting at Ebenezer AME [African Methodist 
Episcopal] Church. It was somewhat of a backhanded compliment 
to the people of my State that the murderer identified he could 
not find people locally who agreed with him. But what motivated 
him was going on the Internet and finding people. And so what I 
had hoped would be liberating of Internet can actually produce 
an extraordinary danger to American citizens. And I now proceed 
to Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. I, too, want to, 
again, thank our witnesses for your testimony.
    So if I could, Secretary, maybe we can do a little deeper 
dive on this the whole-of-government approach, how information 
is managed, and can you talk more specifically? You say from 
the strategic to the down to the tactical, how we are managing 
the information, and the way in which the State Department has 
input into this as well as the IC [Intelligence Community] in 
terms of messaging, and again, how the information flows and 
how it is managed?
    Secretary Lumpkin. No, I appreciate the question, sir. 
Again, the State Department has the lead, so they set the 
conditions internationally, you know, as far as the messaging 
piece. We, at DOD, you know, we execute in support, you know, 
tactical- or operational-level military operations. We do that 
as we continue to work with the State Department in the larger 
message sets.
    Now, the Intelligence Community, what they are doing is 
they are continually watching our adversaries' actions, and to 
see what they are doing and which feeds back into the process 
of we know what they are doing and how they are responding.
    You know, the two principal challenges we have in this 
space within the Department is that, one, the speed of 
technology and what our adversaries are able do with it, so we 
are always adjusting and shifting; and there is also the 
assessment piece that we do all the time, because we have to 
assess if our actions are actually working.
    And one of challenges we have that is kind of unique to 
this space is that when we--when something doesn't happen, 
something bad doesn't happen, that is frequently when we know 
we are successful. So we are trying to validate something that 
didn't happen. So it is a challenge. But as we work in the 
overall structure within the whole-of-government approach, that 
is always feeding back in as far as the whole process as we 
work with the IC, the State, and then DOD's component in there.
    Mr. Langevin. Is State properly resourced? And again, will 
they have some of the lead on this? But the capabilities are in 
the hands of DOD. Are they properly resourced to help to manage 
the information flow?
    Secretary Lumpkin. I think it is outside of my lane to talk 
about State Department resourcing. That said, the fact that we 
have, you know, 25 percent of the CSCC detailed to fill 
critical positions over there tells me they don't have the 
manpower to put against the mission like they would. That is my 
guess, but I would defer to State for a more satisfying answer.
    Mr. Langevin. That insight is helpful. I appreciate the 
answer. So Secretary, ISIL is waging, obviously, an information 
operations campaign using social media that has proven 
effective in recruiting new fighters, obtaining financing, and 
generally strengthening their political and strategic goals 
while undermining U.S. and other regional partners' objectives.
    ISIL also uses open sources for command and control, and 
their broad use of social media has reinvigorated a discussion, 
obviously, of DOD's role and effectiveness in the information 
operations environment.
    So little more--drilling down a little bit more on this 
topic, are Department of Defense's policies and directives 
keeping pace with the ever-evolving information environment? 
And what reviews and discussions are taking place within 
Department of Defense in whole of government to increase 
effectiveness of military operations to counter propaganda, and 
are new tactics, techniques, and procedures being developed?
    Secretary Lumpkin. We are doing continual self-evaluation, 
not just within the Department of Defense, but the interagency 
writ large. As a matter of fact, I sat in a meeting yesterday 
with Secretary Carter and Secretary Kerry, and this was one of 
the topics that we discussed is that how we continue to work 
better to counter and show the true nature of ISIL, and to make 
sure we are leveraging every asset authority that we have 
collectively between our two organizations to continue to show 
the world what ISIL really is.
    So it is a continual process, and we look forward to our 
continued work with the committee here. If we do identify new 
needs or authorities, we will come to you asking for those.
    Mr. Langevin. Again, since my time is running out, I will 
wait to if we go to a second round of questions. But to Mr. 
Franks' question, the topic that he raised, and Mr. Armstrong, 
you talked about these trusted partners and seeking them out 
and making sure that the message is communicated; and 
Secretary, your point of exposing ISIL for what they are, 
finding, identifying those credible voices, particularly, for 
example, President al-Sisi and the speech that he gave to the 
religious community and the admonition that he gave, those are 
the types of things that help to convey the message of a 
counterbalance to what the message an organization like ISIL is 
trying to convey. With that, I will yield back since my time 
has expired.
    Mr. Wilson. Thank you, Ranking Member Langevin. We now 
proceed to Congresswoman Stefanik.
    Ms. Stefanik. My question is for Mr. Armstrong. We have 
talked a lot today about the importance of countering 
propaganda with a credible voice. And you mentioned that in 
your testimony. But during a CODEL [congressional delegation] I 
was on earlier this year, in Jordan specifically, much of the 
leadership discussed the importance of the fact that this is a 
long-term, generational struggle. And again, instead of talking 
about our strategies for being reactive, what do we need to be 
doing to make sure that our IO capabilities are more proactive? 
I know that is a broad question, but I think it is an important 
one looking 5, 10, and a generation down the line.
    Mr. Armstrong. Thank you for the question. Because of the 
nature of my agency, I am going to restate the question 
slightly because we don't do information operations, but the 
information environment. It is important that the value of 
information, the value of the conversation, the value of 
journalism, the freedom to speak and the freedom to listen, and 
that empowerment to the audience, is maintained over the years. 
This agency is Voice of America, it started in the 1940s, 1942. 
And it has always had a fundamental purpose of empowering 
people through the access to news and information. And that was 
a fundamental counter to propaganda was access to the truth.
    So I think the one answer is acknowledging that information 
matters. We forget that. It seems to come and go in waves.
    Two, appreciate that in the United States, we have a 
fundamental appreciation of the press. And there is a reason 
why, because it is fundamental to a democratic process and 
whatever flavor of democracy that is. They are very important, 
they're a voice for the people.
    Three, that the people actually matter and that they need a 
voice, not just the, quote, ``formal journalist.'' And then I 
would add another is that our interagency partners can use us 
more, that they can be available to us to get on because of our 
access to the audience, they can come on and they can speak to 
a vast audience much greater than simply standing at a podium 
and hoping that a Western media will convey that story to a 
foreign domestic audience that is a target audience or that 
that local media, which often does not have a global reach and 
does not understand the context of the statement of say 
Secretary Kerry or the President or whoever it is going to be, 
and that they utilize us more because we can help unpack that 
story.
    Ms. Stefanik. General Haas, did you want to comment on that 
question?
    General Haas. Well, SOCOM specifically is working on not 
only the interagency aspect of this problem set, as the 
Secretary said, but we are also very focused on building 
reliable partnerships, which we see as critical to really 
informing us about this generational issue. And so we spend a 
lot of time at SOCOM and within our tactical forces building 
those important, reliable international partnerships that we 
will need to better inform us for the future.
    Ms. Stefanik. Thank you very much for those thoughtful 
answers. I yield back, Mr. Chairman.
    Mr. Wilson. Thank you, Ms. Stefanik. I think an unheralded 
positive story has been the military information support 
operations. And I think it would be very helpful for General 
Haas, General Moore, possibly Secretary Lumpkin, if you all 
could explain how these are developed and what has been the 
experience for the last 14 years?
    General Moore. As far as the training and equipping, et 
cetera, that I know General Haas can get into the specifics for 
you there. But I will tell you that they have been absolutely 
critical, especially as I mentioned in some of the opening 
statements, in our embassies to help advance the capabilities 
of a lot of the governments and a lot of the military 
organizations that we have been helping in terms of building 
their partnership capacities, so that they can deal with these 
problems on their own, which, of course, I know you understand, 
ties right into really what our goals are in places like Iraq 
right now, which is to let them work these issues from the 
inside out.
    So I think that they have been invaluable, and we will 
continue to use them whenever they are requested by the chiefs 
of mission, and supported by the relevant combatant commanders. 
General Haas.
    General Haas. The successes, as well as the lessons 
learned, have helped us inform SOCOM in how do we adjust our 
assessment selection process as well as our qualification 
process for our MISO soldiers? So every 2 years, we do a 
detailed review based not only on the successes that we are 
seeing in the AFRICOM [U.S. Africa Command] AOR with hunting 
Joseph Kony, to what we are experiencing in the Pacific AOR or 
the Central Command AOR to help us refine the actual classes of 
instruction, and the skills and attributes that we want to 
build into our MISO force.
    So they have been very informative over the last decade, 
and they will continue to inform us in the future. So we are 
fielding a MISO force that meets the requirements of the 
specific combatant commanders. And if we have to, for example, 
adjust a language requirement based on an emerging requirement, 
then we have the capability to do that, and I think the 
flexibility within our system to adjust to meet that emerging 
requirement.
    Mr. Wilson. And as I conclude, I want to thank you all. And 
something that was meaningful to me, by getting proper 
information out, it promotes a level of stability and certainly 
robs people who have ill intent to their local community and 
us. And I think in coordination with the United States Agency 
for International Development. I wish more people knew about 
that too. What was so inspiring to me on my 11 visits--12 to 
Afghanistan, to see the number of signs that were by road signs 
next to buildings of the clasped hands, U.S. flag, the flag of 
the Islamic Republic of Afghanistan.
    And a point that always impressed me, many of these signs 
were rusty, they had been there a long time. And if people 
found that resentful of these schools being built, the 
hospitals being built, the bridges being built, they could take 
the signs down. And so much good. And I always quote 
Congresswoman Sheila Jackson Lee, and that is on my first visit 
to Afghanistan, that good news has no feet and bad news has 
wings. So good luck. And to the Board of Governors, please get 
all this corrected. I now go to Congressman Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. Just one final 
question, I would go to General Haas. General, can you please 
describe, to the extent that you can in an unclassified forum, 
current information related to capabilities to counter 
propaganda and social media? Which are most effective in your 
opinion and why? And what challenges do forces face in 
employment of these capabilities? And how are these challenges 
being addressed? And what capabilities are being developed in 
the future--for the future, I should say?
    General Haas. Thank you for the question, sir. If I could 
break that down and answer it. Your first part was----
    Mr. Langevin. Which of the capabilities, to the extent that 
you can talk about it in an open forum, which are most 
effective and why?
    General Haas. Thank you. So as I said in my opening 
comment, I think the most important capabilities that we bring 
is our language and cultural understanding, as well as the 
training that we provide to our MISO soldiers on how to conduct 
influence ops, particularly in the 21 deployed military 
information support teams that General Moore talked about. That 
is one of the distinct capabilities that we help bring to the 
country team and the interagency, is this cultural 
understanding and awareness, as well as this language 
capability.
    Now, as I stated, what we are looking to the future is 
addressing the Internet-based operations of the future. And we, 
in a different forum, we would be more than happy to discuss 
what we are determining in that current assessment of our 
capability gaps and where we see an opportunity to fill or 
close those gaps in our current capabilities.
    Mr. Langevin. Okay. Thanks, General. And I guess, you know, 
related to this, the other part of my question was what 
challenges do forces face in employment of these capabilities? 
And how are the challenges being addressed?
    General Haas. Well, I believe there is multiple challenges, 
depending upon which region of the world we are deployed. I 
think we have a great relationship with our interagency 
partners in this area. And I think our combatant commanders, 
without speaking for them, based on what they have identified, 
is that we are probably not capable or doing enough on the 
Internet or the Web. And that is what they have specifically 
asked us to address, those challenges. As to the other 
challenges, I would have to defer that to my Joint Staff 
partner or those specific combatant commands that are employing 
our MISO forces out there today.
    Mr. Langevin. Anybody else want to comment on the 
challenges?
    General Moore. Sir, I think Major General Haas covered it 
quite well. But if we take a look, like he said, it really 
depends on what area of the world we are talking about. If we 
want to take ISIL, for example, like we have said, their 
abilities using social media, using cyber capabilities is 
really one of their centers of gravity. And it is the speed at 
which you can operate, an individual person can operate, it is 
the depth at which they can reach into a population. They can 
do it 24/7, 365 days a year. And so it is how do you keep up 
and combat the speed at which that message may be getting out?
    So it is not just about the message itself, it is also tied 
into the speed at which they can get that message out and they 
can update it.
    Mr. Langevin. How challenged are we with respect to the 
language barriers? I would imagine that this is something that 
we have accounted for. And I know we have folks working on 
developing and enhancing our linguistic capabilities. But how 
is that hampering our ability?
    General Haas. Where we are not fluent in a language, sir, I 
think the challenge is we rely on interpreters. And we train 
our soldiers in how to work with interpreters, but once again, 
it could potentially be a foreign national, or a local national 
that is providing that data, and therefore, it is not that 
individual operator who has the fluency in the language to be 
able to provide those recommendations, options, courses of 
actions for how we should do counter-propaganda. It is coming 
through an interpreter. So we are always working on trying to 
improve our language skills within our MISO community.
    Mr. Langevin. Good. Thank you, General. Thanks, Chairman, I 
yield back. Thank you for your testimony.
    Mr. Wilson. Thank you, Ranking Member. And again, for each 
of you, we are very, very grateful for your service. You make a 
difference to promote a level of stability, which is so 
important not just for American families, but for people around 
the world. With this, we now conclude and we are adjourned.
    [Whereupon, at 3:19 p.m., the subcommittee was adjourned.]

      
=======================================================================


                            A P P E N D I X

                            October 22, 2015

     
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            October 22, 2015

=======================================================================

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     

   

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            October 22, 2015

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. WILSON

    Mr. Wilson. How can COCOMs (and the United States Government in 
general, including DHS, Treasury, and State) better utilize BBG's 
unique pathways to and relationships with audiences?
    Mr. Armstrong. The BBG's reach--226 million according to Gallup 
research--is indeed significant.
    BBG broadcasters routinely cover all major press availabilities at 
the Pentagon and Department of State, and we have positive 
relationships with senior State and DOD leaders.
    That said, we continue to explore ways to expand cooperation.
    We work with DHS representatives through various inter-agency 
processes, and find DHS material on such topics as online recruiting 
useful material for our programs.
    We thank for the committee on their past support to revise the 
Smith-Mundt Act and permit domestic access to BBG content. Our content 
is easily accessible online. However, internal BBG procedures and 
(possible over-reliance on) the use of licensed content from AP and 
others, result in barriers for domestic media from reusing our content 
for rebroadcast. DHS and other inter-agency partners can promote our 
language services to specific immigrant communities, especially those 
underserved by reliable media.
    BBG receives regular updates on Treasury additions and deletions to 
sanctions listings, and we find them particularly useful regarding 
Iran. The listings provide story leads, especially involving sanctions 
violations and financing of sanctioned organizations.
    There are no regular, systematic meetings between BBG, DHS, and 
Treasury, however, and the idea bears consideration.
    Concerning the COCOMs, the BBG and Department of Defense have a 
generally positive working relationship.
    SOCOM's Washington office acts as one of the principle gateways 
between DOD and the BBG. SOCOM facilitates rotation of videographers 
and technicians from Ft. Bragg through short-term assignments at the 
Voice of America. Soldiers have the opportunity to cover spot news in 
the Washington area and assist in story editing and production 
techniques.
    MIST deploying overseas typically visit BBG prior to deployment, 
where they receive assessments of the information and political 
environment. They often receive the latest audience research and public 
opinion studies from our Research Department.
    And when they want to know about media consumption habits in the 
target countries, we are more than happy to share our data.
    There is often technical collaboration as well. For example, BBG 
contributed both equipment and engineering expertise to SOCOM and other 
DOD elements helping to rebuild Ukraine's heavily damaged broadcast 
infrastructure.
    BBG also contributed surplus broadcast equipment to National Guard 
units working to create the next-generation quick-deployment broadcast 
systems.
    We have worked with PACOM in the creation of a dedicated, special 
interest digital platform, BenarNews.
    This website replaces the former Khabar web site funded through the 
Trans Regional Web Initiative (TRWI). Funded by PACOM, BenarNews is 
managed and edited through BBG grantee Radio Free Asia.
    The result is a content-rich site that covers a number of Asian 
countries--Indonesia, Malaysia, Thailand and India--which have been the 
subject of intense online recruiting efforts by Daesh.
    We have had discussions with CENTCOM, EUCOM and AFRICOM regarding 
similar collaborations; those talks continue.
    Working with contracting support from DOD's Countering Terrorism 
Technical Support Office (CTTSO), we created a prototype of a Content 
Exchange Platform. This digital platform would allow for easy exchange 
of content between various parts of the USG working on anti-Daesh and 
related efforts.
    We believe there is merit in continuing the development efforts, as 
resources permit.
    Mr. Wilson. How do BBG and CSCC work together? Would you make any 
recommendations for improving that working relationship?
    Mr. Armstrong. BBG works routinely with CSCC. We provide a five-
days-a-week digest of BBG coverage of Daesh and related issues to CSCC, 
which is then distributed to USG communicators along with CSCC's daily 
thematic guidance.
    We are also a participant in the inter-agency effort on Line of 
Effort #6: Demonstrating ISIL's True Nature, and we work with NCTC on 
Line of Effort 7: Impeding the Flow of Foreign Fighters.
    As for areas of improvement, BBG is somewhat impeded by the fact 
that it does not have ready access to the classified e-mail systems on 
which much of NSCC and CSCC's business is conducted. I have been 
pushing for our senior leadership, especially our strategists, to get 
high-side accounts. At present, I am the only Governor and only one of 
a few individuals with a high-side account, plus one person designated 
as the ``drop box'' for receiving and sending classified email on 
behalf of others.
    In addition, much of the work product of these organizations would 
provide rich content for news reports if it could be safely and 
expeditiously declassified.
    Mr. Wilson. The U.S. must have counter propaganda with a credible 
voice, and do so proactively rather than reactively. a) How can we 
improve our own credibility? b) How can we amplify the voices of other 
trusted messengers? c) How do we expose the adversary's propaganda for 
what it is, whether from non-state or state actors? How can we engage 
foreign audiences to do the same? d) How can the interagency move to a 
proactive posture, rather than reactive, to counter messaging?
    Mr. Armstrong. The nature of credibility has changed in the digital 
age. Even in highly filtered markets bombarded by domestic and foreign 
propaganda, audiences can access more sources of information. As a 
result, they often spend less time deliberating information and may 
select sources that conform to their personal bias. This increased 
competition for attention means the BBG must focus on being relevant to 
the audience. Our credibility stems from being accessible in the local 
language, using the local vernacular, being available on the platforms 
the audience use (i.e. radio, TV, mobile, Internet, or print) and 
providing verifiable and timely news and information the audience can 
use. Professional journalism goes beyond simply conveying facts; it 
also teaches the audience how to weight the different sides.
    In broader terms, the U.S. must understand that actions and words 
communicate and shape opinions. Often, it is the action that wins over 
the words. Where there is a ``say-do gap,'' our credibility suffers. 
This problem is magnified where our audiences have long memories. 
Perhaps worse, such gaps pose potential opportunities for adversarial 
propaganda by our opponents.
    As we have seen, the Russians, Daesh, and the Chinese actively use 
information to advance their foreign policy interests. They change the 
``facts,'' alter perceptions, and shift blame. Exposing adversarial 
propaganda for what it is, and exposing the reality that propaganda 
seeks to gloss over requires agility, resources, and a strategy.
    Tactically, we must first understand whether, how, and why 
adversarial propaganda efforts are successful. The ``counter'' will 
often not be through a bullhorn, but through a change in policy, 
restating a policy, or bringing other resources, including 
communications resources, to bear on the underlying problems that 
propagandists seek to exploit.
    Propaganda succeeds most when it is uncontested and when audiences 
cannot turn elsewhere. The challenges posed by Russian, Daesh, Chinese, 
and Iranian propaganda, among others, may have common elements, but 
they will be specific in their targeting and impact.
    The BBG can help several ways here, beyond professional journalism 
that exposes the reality on the ground and potentially inoculates 
against propaganda.
    First, the BBG can undertake investigative journalism to expose 
realities our adversaries are trying to hide. The BBG does not have the 
resources to do this. During the Cold War, this was a focus of USIA and 
VOA and they had the capability to execute effectively in these areas. 
RFE/RL also was effective through their large staff dedicated to 
investigating abuses and corruption in Eastern Europe and in Soviet 
Russia.
    While there are successful programs and efforts scattered across 
the BBG, in particular at RFE/RL, RFA and VOA, there is not the 
capacity for sustained, long-term corruption and investigative 
reporting. The BBG would welcome conversations with Congress and the 
Administration on how to continue to increase our investment into this 
important resource.
    Second, the BBG's journalists are the ``canary in the coal mine.'' 
That is because of their deep networks in countries of interest to U.S. 
foreign policy. Because they grew up in these countries, lived and 
worked in them, they often have a ``feel'' for what is happening on the 
ground. The BBG should take their views into account, especially when 
planning broadcast ``surge'' in response to crises.
    It is critical that the BBG focus both its credibility and its 
tools to proactively counter misinformation in key audiences around the 
world. I look forward to working with this Committee, and the rest of 
the Congress, to ensure that we are coordinated in our efforts, and I 
would be happy to answer any additional questions you may have at any 
time.
    Mr. Wilson. In 2011, the Administration established the Center for 
Strategic Counterterrorism Communications (CSCC). Its charter is to 
``reinforce, integrate, and complement public communications efforts 
across the executive branch.'' DOD currently has approximately six 
detailees assigned to the CSCC. a) How are DOD strategic, operational, 
and tactical plans and operations coordinated with the CSCC? b) Is the 
CSCC an effective organization to then integrate those plans and 
operations within the interagency? c) Is the CSCC appropriately 
resourced by DOD and other interagency partners?
    Secretary Lumpkin. Aspects of DOD plans and operations that are 
relevant to counterterrorism communications are closely coordinated 
with the CSCC. The CSCC's role is to integrate counterterrorism 
messaging of various U.S. Government departments and agencies. DOD 
detailees to the CSCC provide military expertise, including in planning 
which allows CSCC to be more effective in integrating DOD capabilities 
into U.S. Government counterterrorism messaging. DOD's support to CSCC 
is at the level requested and is adequate for the tasks assigned.
    Mr. Wilson. Actions are a fundamental form of communication, and 
strategic communications can affect actions. It is therefore imperative 
that we make effective, credible, and timely communications a part of 
our operations and planning across all levels--strategic, operational, 
and tactical. Poorly integrated actions and messaging could degrade the 
mission, while simultaneously bolstering our adversary's own 
propaganda. a) How, where, when, and at what levels does DOD 
incorporate strategic communications into military planning? b) How are 
those plans integrated with interagency partners at the COCOM and Joint 
Staff level? c) How are they integrated with coalition partners? d) Are 
we prepared to counter state and hybrid actors, as we do non-state 
actors? e) How are lessons learned shared within the Joint Staff, 
COCOMs, and interagency partners?
    Secretary Lumpkin and General Moore. DOD incorporates strategic 
communications throughout all phases of operations, from strategic to 
tactical levels. While acknowledging that Department of State has the 
lead for strategic communication outside designated areas of hostility, 
DOD plans for actions and activities that support USG strategic 
communication objectives. For example, military exercises in Eastern 
Europe are tangible actions that reinforce U.S. pledges of support to 
our partners in the region. All of our plans are shared with 
interagency partners for review and comment by the Office of the 
Secretary of Defense. Additionally, the combatant command staffs have 
representatives from various interagency partners on the staff. These 
partners are vital to providing input and perspective of their parent 
agency. Additionally, they are able to keep their agencies informed 
regarding the direction of combatant command planning efforts. Our 
closest coalition partners often have representatives on the Joint 
Staff and at the COCOMs. Provided they possess the appropriate 
clearances, coalition partners are full participants in our planning 
processes. Absent those clearances, they are integrated to the fullest 
extent possible while protecting USG interests. Yes, although our 
adversaries and potential adversaries are taking advantage of new 
technologies, we are prepared to counter state, non-state, and hybrid 
actors alike. Our experiences over the last decade have shown us that 
we must become more adept at dealing with all actors in the information 
environment and has led us to develop capabilities and authorities 
tailored to meet that challenge. With the advent of new technologies, 
our adversaries will continue to evolve their efforts against us and we 
must continue to rapidly adapt our capabilities and responses to 
address all adversaries. All IO can be submitted into the Joint Lessons 
Learned Process (JLLP) overseen by the J7. Joint Lessons Learned 
Information System (JLLIS) is the automated solution supporting 
implementation of the Chairman's Joint Lessons Learned Program (JLLP). 
JLLIS facilitates the collection, tracking, management, sharing, 
collaborative resolution and dissemination of lessons learned to 
improve the development/readiness of the Joint Force. The validated 
information also enables actionable Doctrine, Organization, Training, 
Materiel, Leadership and Education, Personnel, and Facilities (DOTMLPF) 
and Policy changes to improve joint and combined capabilities. The 
outputs JLLP include changes to Joint Doctrine, Education, Concept 
Development, Joint Exercises and Joint Capabilities. All COCOM's, 
Functional Commands, Combat Support Agencies and Services participate. 
JLLP supports the interagency, multinational and non-governmental 
communities to foster mutual understanding and enhanced inter-
operability.
    Mr. Wilson. What lessons related to MISO and IO have we learned 
from the past 14 years of war? How do you think that will affect how 
the MISO/IO force of the future will need to change in the next 5 to 10 
years?
    General Haas. Based upon our experiences and lessons learned over 
the last 14 years, we have adjusted our personnel selection, updated 
and enhanced our MISO training, and better integrated our force 
structure. We have implemented a new personnel assessment and selection 
program, which lasts two weeks, and is designed to test potential 
members of the MISO community to ensure they have the attributes 
necessary to conduct effective influence. We have expanded our MISO 
training with an increased focus on language, culture, and influence 
principles. Our MISO force structure now includes two active duty 
groups, which are combined with Special Forces and Civil Affairs Groups 
under one single command headquarters. This integration of capabilities 
allows for better fusion of all Army Special Operation Forces (ARSOF) 
skill sets in execution.
    With respect to the future, we have seen our adversaries, both 
nation-state and terrorist, increasingly turn to extensive use of 
misinformation and propaganda as their primary efforts. These efforts 
have frequently taken advantage of the open nature of the Internet with 
alarming results. We will need to master web-based operations and stay 
abreast of emerging advances in technology to meet this challenge. We 
have learned that we must remain committed to our Special Operations 
Forces truths and continue to invest in our people. We must remain 
focused on our long term objectives, rather than being reactive and 
trying to match each of the adversaries' tweets/posts, etc. Our force 
needs to remain flexible in posture rather than settle into one 
operational paradigm (e.g. only deploying MISTs). We must be able to 
execute in a range of missions across the operational and tactical 
levels in evolving and ever-changing scenarios.
    Mr. Wilson. What lessons related to MISO and IO have we learned 
from the past 14 years of war? How do you think that will affect how 
the MISO/IO force of the future will need to change in the next 5 to 10 
years?
    General Moore. The operational environment today contains a complex 
mixture of audiences, media platforms and communicators all with a 
great appetite for information. The last 14 years have provided with a 
greater understanding of the cultural aspects of a specific operational 
environment which factors local history, religion, culture, customs, 
and laws. This increased understanding allows us to better understand 
audiences, which is essential to effectively communicate to the right 
audience to achieve an effect in support of our government objectives. 
Another lesson learned is our increased U.S. interagency collaboration 
at the operational, tactical, and, embassy levels, which has expanded 
our whole of government efforts to synchronize messages with actions. 
However, with increased coordination comes a slower approval processes 
and one must maintain a balance to ensure actions and words send the 
intended message.
    Without a doubt, we'll continue to garner more lessons learned as 
the information environment evolves. In the coming years, we'll need to 
be more agile and flexible as our adversaries will also continue to do 
so, especially in the information space.

                                  [all]
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
</pre></body></html>
